No. 19-123
INTHE

hpremt C!tnurt nf tl}t llniteb &tatts
SHARONELL FULTON,

v.

et al.,

Petitioners,

CITY OF PHILADELPHIA, PENNSYLVANIA,

et al.,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF SERVICE

I, Paul R.Q. Wolfson, a member of the bar of this Court, hereby certify that, on
this 20th day of August, 2020, all parties required to be served have been served copies
of the Brief for Voice for Adoption, North American Council on Adoptable Children,
National Association of Social Workers, Child Welfare League of America, and
American Professional Society on the Abuse of Children as Amici Curiae in Support of
Respondents in this matter by overnight courier to the addresses on the attached
service list.

PAUL R.Q. WOLFSON
WILMER CUTLER PICKERING
HALE AND DORR LLP

1876 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6390
pau1.wolfson@wilmerhale.com

SERVICE LIST
Counsel of Record for Petitioners
MARK LEONARD RIENZI
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 New Hampshire Ave., NW, Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel of Record for Respondents
LESLIE COOPER
AMERICAN CIVIL LIBERTIES UNION
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel of Record for IntervenorRespondents Support Center for Child
Advocates and Philadelphia Family
Pride
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637 5528
neal.katyal@hoganlovells.com
Counsel for Respondents City of
Philadelphia, Department of Human
Services for the City of Philadelphia,
Philadelphia Commission on Human
Relations
DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

